<html>
<title> - MOURNING THE LOSS OF LIFE IN JANUARY 2009 BY LANDSLIDE IN GUATEMALA AND EARTHQUAKE IN COSTA RICA AND EXPRESSING THAT THE U.S. SHOULD ASSIST THE AFFECTED PEOPLE AND COMMUNITIES; EXPRESSING THAT THE U.S. REMAINS COMMITTED TO NATO; EXPRESSING THE NEED FOR CONSTITUTIONAL REFORM IN BOSNIA AND HERZEGOVINA AND THE IMPORTANCE OF SUSTAINED U.S. ENGAGEMENT IN PARTNERSHIP WITH THE EU; CALLING ON THE PRESIDENT AND ALLIES OF THE U.S. TO ENGAGE WITH THE GOVERNMENT OF IRAN TO RAISE THE CASE OF ROBERT LEVINSON</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
MOURNING THE LOSS OF LIFE IN JANUARY 2009 BY LANDSLIDE IN GUATEMALA AND 
EARTHQUAKE IN COSTA RICA AND EXPRESSING THAT THE U.S. SHOULD ASSIST THE 
   AFFECTED PEOPLE AND COMMUNITIES; EXPRESSING THAT THE U.S. REMAINS 
  COMMITTED TO NATO; EXPRESSING THE NEED FOR CONSTITUTIONAL REFORM IN 
BOSNIA AND HERZEGOVINA AND THE IMPORTANCE OF SUSTAINED U.S. ENGAGEMENT 
IN PARTNERSHIP WITH THE EU; CALLING ON THE PRESIDENT AND ALLIES OF THE 
U.S. TO ENGAGE WITH THE GOVERNMENT OF IRAN TO RAISE THE CASE OF ROBERT 
                                LEVINSON

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                H. Res. 76, H. Res. 152, H. Res. 171 and

                            H. Con. Res. 36

                               __________

                             MARCH 25, 2009

                               __________

                           Serial No. 111-11

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
48-331                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                   David S. Abramowitz, Chief Counsel
         Laura Rush, Professional Staff Member/Security Officer
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 76, Mourning the horrific loss of life in January 2009 
  caused by a landslide in Guatemala and an earthquake in Costa 
  Rica and expressing the sense of Congress that the United 
  States should assist the affected people and communities.......     2
  Amendment in the Nature of a Substitute to H. Res. 76 offered 
    by the Honorable Dan Burton, a Representative in Congress 
    from the State of Indiana....................................     6
H. Res. 152, Expressing the sense of the House of Representatives 
  that the United States remains committed to the North Atlantic 
  Treaty Organization (NATO).....................................     9
  Amendment to H. Res. 152 offered by the Honorable John S. 
    Tanner, a Representative in Congress from the State of 
    Tennessee....................................................    15
H. Res. 171, Expressing the sense of the House of Representatives 
  on the need for constitutional reform in Bosnia and Herzegovina 
  and the importance of sustained United States engagement in 
  partnership with the European Union (EU).......................    16
  Amendment in the Nature of a Substitute to H. Res. 171 offered 
    by the Honorable Howard L. Berman, a Representative in 
    Congress from the State of California, and Chairman, 
    Committee on Foreign Affairs.................................    22
H. Con. Res. 36, Calling on the President and the allies of the 
  United States to engage with officials of the Government of 
  Iran to raise the case of Robert Levinson at every opportunity, 
  urging officials of the Government of Iran to fulfill their 
  promises of assistance to the family of Robert Levinson, and 
  calling on the Government of Iran to share the results of its 
  investigation into the disappearance of Robert Levinson with 
  the Federal Bureau of Investigation............................    28
  Amendment in the Nature of a Substitute to H. Con. Res. 36 
    offered by the Honorable Robert Wexler, a Representative in 
    Congress from the State of Florida...........................    32

                                APPENDIX

Markup notice....................................................    44
Markup minutes...................................................    45
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    47


MOURNING THE LOSS OF LIFE IN JANUARY 2009 BY LANDSLIDE IN GUATEMALA AND 
EARTHQUAKE IN COSTA RICA AND EXPRESSING THAT THE U.S. SHOULD ASSIST THE 
   AFFECTED PEOPLE AND COMMUNITIES; EXPRESSING THAT THE U.S. REMAINS 
  COMMITTED TO NATO; EXPRESSING THE NEED FOR CONSTITUTIONAL REFORM IN 
BOSNIA AND HERZEGOVINA AND THE IMPORTANCE OF SUSTAINED U.S. ENGAGEMENT 
IN PARTNERSHIP WITH THE EU; CALLING ON THE PRESIDENT AND ALLIES OF THE 
U.S. TO ENGAGE WITH THE GOVERNMENT OF IRAN TO RAISE THE CASE OF ROBERT 
                                LEVINSON

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will now come to order. 
Pursuant to notice, we have a series of noncontroversial bills 
on the agenda. It is the intention of the chair to consider 
these measures en bloc, and by unanimous consent, authorize the 
chair to seek consideration of the bills under suspension of 
the rules.
    All members are given leave to insert remarks on the 
measures into the record should they choose to do so. The 
measures to be considered are as follows: H. Res. 76, Mourning 
the horrific loss of life in January 2009 caused by a landslide 
in Guatemala and an earthquake in Costa Rica and expressing the 
sense of Congress that the United States should assist the 
affected people and communities; H. Res. 152, Expressing the 
sense of the House of Representatives that the United States 
remains committed to the North Atlantic Treaty Organization 
(NATO); H. Res. 171, Expressing the sense of the House of 
Representatives on the need for constitutional reform in Bosnia 
and Herzegovina and the importance of sustained United States 
engagement in partnership with the European Union (EU); and H. 
Con. Res. 36, Calling on the President and the allies of the 
United States to engage with officials of the Government of 
Iran to raise the case of Robert Levinson at every opportunity, 
urging officials of the Government of Iran to fulfill their 
promises of assistance to the family of Robert Levinson, and 
calling on the Government of Iran to share the results of its 
investigation into the disappearance of Robert Levinson with 
the Federal Bureau of Investigation.
    [The resolutions and amendments follow:]<greek-l>H. Res. 
76 deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>ANOS to H. Res. 76 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>H. Res. 152 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>Amendment to H. Res. 152 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>H. Res. 171 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>ANOS to H. Res. 171 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>H. Con. Res. 36 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>ANOS to H. Con. Res. 36 deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Do any members wish to be heard on these 
measures?
    Mr. Rohrabacher. Mr. Chairman, so this is the time that we 
would comment on any of the measures that are in the en bloc?
    Chairman Berman. Yes, but only on those measures.
    Mr. Rohrabacher. That is correct. Yes, Mr. Chairman, I 
would just like to note that I oppose one of the resolutions 
within this en bloc amendment, and that is H. Res. 152, dealing 
with the sense of the House expressing that the United States 
remains committed to the North Atlantic Treaty Organization.
    Mr. Chairman, I oppose House Resolution 152 because I 
believe NATO has outlived its usefulness, and when the Soviet 
Union dissolved, we should have given NATO a great retirement 
party, celebrating its essential role in winning the Cold War.
    Instead, we decided to keep it around, and here we have 
kept around this international organization, whose sole purpose 
was to defend Europe, and by extension, the United States, from 
Communist domination.
    In the last 18 years, since the end of the Soviet Union, 
instead of ending an organization which had completed its 
mission, we have tried to dream up new missions for NATO, and 
these missions quite often were not well suited for NATO.
    As a result, NATO has been, as far as I am concerned, a net 
minus for the United States national security. We have more 
troops tied up with NATO in Europe than Europe contributes 
through NATO to our efforts.
    Now, let us think carefully about this, and let us actually 
evaluate the purpose of the organization, rather than passing 
basically a feel good resolution. Mr. Chairman, I don't think 
that our NATO allies today can be counted to do what is 
necessary and provide the help that we need to meet the 
challenges of the future.
    It thus gives the United States and the people of the 
United States a false sense of security to be relying on our 
European allies, who, yes, during the Cold War played an 
essential role, but will not be playing essential roles as we 
confront new challenges that come up in the future.
    So I would oppose this resolution. Instead, we should have 
a resolution commending NATO for the good role it played during 
the Cold War, but not putting our faith in NATO in the future. 
Thank you very much, Mr. Chairman.
    Chairman Berman. You would like a eulogy here instead. I 
think to hear a different point of view, I now recognize the 
gentleman from Tennessee, the sponsor of the resolution, Mr. 
Tanner.
    Mr. Tanner. Thank you, Mr. Chairman. With all due respect, 
I could not disagree more. NATO today is evolving into the only 
truly international organization with the ability to go to a 
place where chaos reigns, bring some order to it, and back it 
up with some military capability.
    The United Nations can't do that. The United Nations is a 
good place to go and talk about it before the shooting starts, 
and if we didn't have the United Nations, we would have to 
invent something like it.
    But NATO is the organization that, number one, has kept the 
peace pretty much in Europe since World War II, which is a long 
time by historical standards.
    Number two, NATO has played a pivotal role in The Balkans 
and still does.
    Number three, the support that the NATO allies are giving 
us in Afghanistan, although not perfect, and although some of 
our NATO allies still have caveats that are not only 
troublesome, but not constructive to the NATO effort, 
nonetheless, there are more allied troops in Afghanistan than 
American troops.
    And if this country ever needed friends and allies to help 
us, both from the standpoint of the operations tempo of our 
military--Fort Campbell is in my district, the 101st Airborne. 
Some of those soldiers have been gone 4 out of the last 5 
years. That is too much. Our military is being stretched too 
thin. We are losing senior NCOs and junior officers because of 
the operations tempo that has taken such a toll on military 
people and their families.
    Fighting two wars in Afghanistan and Iraq has taken a 
tremendous toll on the military. So we need not only uniform 
help, but the other part about NATO that people sometimes don't 
realize is the interoperability when it comes to intelligence 
gathering, particularly the Eastern European new NATO members 
that were part of the old Warsaw Pact, have some intelligence 
capabilities that we do not possess and will not possess.
    Other NATO members have intelligence capabilities in North 
Africa that we do not possess and cannot possess, and they 
share with us some of those intelligence assets. Libya comes to 
mind as one of them.
    So for one to take the position that since the Russians 
pouring through the Fulda Gap in Germany to overrun Western 
Europe is no longer what many think a creditable threat, that 
this organization should cease to exist seems to me to be in 
error.
    I know of no military general or officer--and I met with 
the Supreme Allied Commander, Europe, in my office this week--
who shares the sentiments expressed by my friend from 
California.
    The 60th anniversary of NATO is coming up in Strasburg-Kiel 
in the first weekend in April. I will be going as a member of 
the standing committee of the NATO PA as the President Speak to 
that 60th anniversary.
    When one thinks about the 60th anniversary of NATO being 
celebrated on the border of Germany and France, and what 
happened in the last century with respect to those two 
countries twice--both times dragging the United States into 
World War I and World War II--if for no other reason, I think 
the symbolism that will occur there is worthy of our support, 
and this resolution does nothing more than speak to that. Thank 
you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. 
Anyone else on the minority side seeking recognition at this 
point?
    [No response.]
    Chairman Berman. Then the gentleman from Georgia, Mr. 
Scott, is recognized.
    Mr. Scott. Thank you very much, Mr. Chairman. I, with all 
due respect, also disagree with my good friend on the other 
side from California. I think from the very points that he 
made, never before have we <greek-l>needed  deg.a greater need 
for NATO.
    NATO is extraordinarily important as a counterweight at 
this time for European nations as they grapple with Russia. The 
Cold War has not exactly thawed out completely. Nowhere is that 
more evident in the grasp that Russia has Europe in the area of 
energy security.
    We constantly read how Russia continues to use its near 
monopoly on natural gas in that region as a political weapon. 
The only balance to that is the consideration of the NATO 
allies.
    The other point is that certainly today and now is 
certainly the wrong time to give anything other than a strong 
vindication from the United States, in terms of the support of 
NATO.
    Here we are, just now committing another 17,000 or 18,000 
troops to Afghanistan. We are working feverishly to get other 
nations in NATO to commit to join us with other troops in NATO, 
and certainly the wrong message to send is our disappointment, 
or disapproval, or rejection of NATO.
    On the other hand, let us stand and speak boldly, as we 
should speak, about the need for NATO, the purpose of NATO, the 
value of NATO, and the future of NATO. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman--Mr. Burton, do you seek recognition?
    Mr. Burton. Yes, sir, just very briefly.
    Chairman Berman. You are recognized.
    Mr. Burton. Mr. Chairman, I support the resolution and I 
yield the rest of my time to my radical friend, Dana 
Rohrabacher of California. [Laughter.]
    Mr. Rohrabacher. Mr. Chairman, let me just note that I, in 
spirit, certainly appreciate the sentiments that are being 
expressed here today about NATO, and that is in spirit, because 
we are talking about people who are committed to America's 
national security, and see NATO as an important part of 
America's national security.
    I would just sincerely disagree with what is being 
expressed, and let me just say again what NATO offers us today 
is an illusion. What we have heard today is an illusion. NATO 
is not causing or making it more possible that we will solve 
conflicts and protect far off friends.
    The fact is that NATO's involvement, or the fact that the 
concept of NATO expansion has led many of our friends not to 
make the compromises, and to deal with the difficulties and 
problems with their own neighbors in far off countries, because 
now they have NATO on their side, and they don't need to 
compromise about that particular issue that is so pressing for 
their country, which puts them at odds perhaps with a neighbor.
    We saw that in Georgia. The fact that the Georgians thought 
they had NATO backing created that conflict. It wasn't Russian 
aggression. The Georgians actually began military operations 
and conducted an offensive, breaking a truce probably because 
they thought that NATO would be behind them.
    NATO actually exacerbates certain problems. Should we have 
gotten involved in The Balkans? Well, we certainly should have 
helped people fight for their freedom by giving them the 
supplies needed to fight for their freedom.
    But should American troops have been sent to The Balkans 
when that was purely a European theater of operations? If the 
Europeans can't take on Serbia, what do we need them as our 
allies for?
    So what we have got here, Mr. Chairman, is we are expending 
limited resources for the benefit of other people's security in 
areas that are not necessarily essential to our own security.
    And this is different than during the Cold War. During the 
Cold War, there was a Communist threat to the world, to the 
Western democracies, which required us to stand together. 
Today, NATO does not stand together with us in the meaningful 
ways that we think it does.
    In Afghanistan, which we just heard lauded, yes, our NATO 
troops are there, and most of them demand to be totally out of 
any area that has any military conflict. Is that helping us, 
that we have troops from our so-called allies, who will go to a 
combat area as long as they are never expected to be in combat?
    Now, yes, there have been a few allies that have gone 
across landmines and such, but by and large in Afghanistan our 
NATO allies are not the ones on the front lines, but the 
American troops are.
    So I would say that the challenges that we face, like in 
Afghanistan, we can do, and if the NATO countries would like to 
come along and help, that is fine. That is good. But we should 
not be encumbering ourselves with a very expensive 
organization.
    As I say, NATO troops--we have actually committed more 
troops to NATO, the United States, with our limited troops, 
than NATO has committed to helping us in these various conflict 
areas.
    So why are we there? Why are we expending this? Because 
there is an illusion that as part of NATO, we are safer. I 
think that was true during the Cold War. It is no longer true. 
NATO is a drag. It is an organization that we can no longer 
rely upon, if you consider relying upon an organization that 
insists that they will only send troops to where their troops 
will never come under fire.
    So with that said, Mr. Chairman, I appreciate the 
sentiments of my friends and colleagues here. I believe it is 
all very patriotic. I just happen to disagree. NATO is no 
longer in the national security interests of the United States.
    It gets us involved in areas of the world that we don't 
need to be involved in, and have nothing to do with our 
national security, and prevents local people from making 
compromises to maintain the peace.
    Chairman Berman. The time of the gentleman has expired. The 
chair would put this issue on ice and turn to the arctic 
hearing, but before he does so, he recognizes the gentleman 
from Florida, Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman, and I will speak to 
House Concurrent Resolution 36. Just one quick, I think, point 
which is necessary with respect to our allies in NATO, in terms 
of the character of their fighting.
    Several countries have suffered significant casualties: 
Denmark, the Netherlands, the British, the Canadians, the 
French, all have fought side-by-side with American troops in 
Afghanistan within the context of NATO in very brave fashion, 
and those are just some of the countries to be named.
    But, Mr. Chairman, I would like to thank you for marking up 
House Concurrent Resolution 36, and urge all of my colleagues 
to support its passage. I introduced this resolution in 
February to shed light on the case of Robert Levinson, 
<greek-l>who is  deg.a constituent of mine from Coral Springs, 
Florida, who disappeared from Iran's Kish Island on March 9, 
2007.
    More than 2 years later there are disturbingly few known 
details about his whereabouts. What we do know, however, is 
that Mr. Levinson is a former FBI agent. He was last heard from 
on March 8, 2007, by his wife, Christine, while he was working 
in Dubai as a private investigator.
    According to his family, he checked into a hotel on Kish 
Island<greek-l>, deg. and checked out the following morning to 
fly back to the United States. Unfortunately, Mr. Levinson 
never arrived at the airport for his flight, and there is no 
accounting for what happened to him since he left the hotel.
    In December 2007, the Levinson family, with assistance from 
Swiss officials in Teheran, traveled to the hotel where Mr. 
Levinson was last seen<greek-l>, deg. and passed out flyers in 
Farsi with his photo. They also met with local Iranian 
authorities to seek their assistance in gaining information 
about Mr. Levinson's disappearance. And these authorities 
pledged to assist the Levinson family with their efforts to 
investigate the circumstances of his disappearance. However, 
despite its pledge, the Government of Iran has not followed 
through on its promise to the Levinson family.
    In fact, the Iranian Government has stonewalled any effort 
to gain pertinent information, claiming they have zero 
knowledge about Mr. Levinson's whereabouts. They have also on 
numerous occasions rejected efforts by the Levinson family to 
meet.
    In this vein, House Concurrent Resolution 36 calls on 
President Obama and allies of the United States around the 
world to raise the case of Robert Levinson at every opportunity 
with officials of the government of Iran. It also urges 
officials of the Government of Iran to fulfill their promises 
of assistance to the Levinson family and calls on the 
Government of Iran to share the results of its investigation 
with the FBI.
    My colleague from Florida, Senator Bill Nelson, introduced 
a bipartisan companion resolution in the Senate with Senator 
Mel Martinez, which passed on the 9th of this month.
    And additionally it is critical that Secretary Clinton and 
the Obama administration continue to employ every diplomatic 
tool at their disposal to locate Mr. Levinson and return him to 
his family.
    I respectfully urge my colleagues to stand with the 
Levinson family and support passage of this resolution. Thank 
you very much, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. I 
do want to remind the committee that we do have witnesses for a 
hearing waiting to start, and I now recognize the gentlelady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the chairman very much. I 
wish to quickly associate myself in support with H. Res. 76, 
and H. Con. Res. 36. H. Res. 76 is important to continue to 
express our kinship with South and Central America, 
particularly as the President leaves for that region in the 
next couple of weeks.
    I also want to support Mr. Wexler on a case that has been 
enormously troubling and will probably seed, unfortunately, 
incidents like this around the world unless of course we 
continue to press the attention on that issue, and particularly 
this case, Mr. Levinson.
    I also want to say having gone to The Balkans during the 
Bosnian war, I want to reinforce the importance of 
strengthening that region. But I would like to focus on H. Res. 
152, which I support, and also certainly acknowledge the 
concerns that have been expressed.
    But this initiative or resolution is important for a number 
of reasons. One, as we approach the 60th anniversary of NATO, I 
think we cannot miss the opportunity of saying that it has had 
a valuable purpose for both the United States and Europe.
    I think it is also important to note that the way that you 
bring about change is to express again a respect. This 
resolution expresses our respect for what NATO has been. It 
also calls upon NATO to act upon the threat posed by the 
proliferation of weapons of mass destruction and terrorism, by 
intensifying consultations among political and military 
leaders, and deploying comprehensive counter threat capability.
    Even though we know that NATO forces have been reduced and 
were reduced in Iraq <greek-l>that  deg.that was--and I say 
NATO forces, countries that are members of NATO. We also know 
that the strength of NATO could be strong in Afghanistan, but 
they were there.
    And on many occasions that I visited Afghanistan, I spoke 
to NATO forces or representatives of such, and I do believe 
that in order to change, you have to engage. This resolution is 
a statement of engagement. It allows this Congress and also the 
new President, to reaffirm our commitment to the principles of 
NATO.
    But at the same time, we talk about pacing the process of 
NATO enlargement. This has a provision that says that it should 
maintain its unequivocal right to make its own decision, but we 
asked NATO to straighten its relations with Russia because I 
believe that is a smart way to go. They can be an effective 
partner in helping us create some long term relationships with 
Russia.
    So, Mr. Chairman, I would indicate that sometimes it is as 
we say in Texas, that more bees go to honey and more flies to 
sugar. Hopefully that is not the diplomatic terminology.
    But in any event, I do believe it is important to move this 
resolution forward and compliment NATO so that we can develop 
more ways of expressing our concerns for an improved NATO, and 
a NATO that is responsive to some of the conflicts that are of 
concern to us and the world. With that, I yield back.
    Chairman Berman. The gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. I understand that you 
want to proceed with the hearing, and so I will just very 
briefly say that I want to thank you for avoiding and placing 
the United States--this is regarding House Resolution 171, 
which we are considering today.
    And thank you for avoiding placing the United States in the 
middle of a war of nationalist rhetoric by including Resolve 
Clause Number 2, which resolves to base any agreement on 
constitutional reform in Bosnia and Herzegovina in the 
multilateral brokered Dayton Peace Accord, and that the 
carefully crafted Dayton Peace Accord is highly regarded in 
this resolution.
    And I hope that our European friends follow suit by 
ensuring that Bosnia's and Herzegovina's membership into the EU 
be conditioned upon its full implementation of its agreement, 
and I will submit the remainder of my statement for the record. 
Thank you, Mr. Chairman. I yield the remainder of my time.
    Chairman Berman. Thank you. Our final speaker is the 
ranking member of the committee, the gentlelady from Florida, 
Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I just 
wanted to say a thank you to you, and to your very able staff, 
for working with us on certain language and little technical 
changes that we wanted to make on some of the resolutions.
    It is always a delight to work with you and your wonderful 
staff members. So, on behalf of our side, thank you very much.
    Chairman Berman. Thank you.
    Ms. Ros-Lehtinen. And I support the en bloc of bills.
    Chairman Berman. Thank you very much.
    Mr. Burton. Mr. Chairman, are we finishing up with all the 
bills at this point?
    Chairman Berman. I sure hope so.
    Mr. Burton. Well, I wanted to make one brief comment if I 
might, Mr. Chairman.
    Chairman Berman. Maybe Mr. Rohrabacher----
    Mr. Burton. No, no, no, no. Once is enough.
    Chairman Berman. All right.
    Mr. Burton. No, the resolution that I am talking about is 
H. Res. 76. It is a resolution mourning the horrific loss of 
life in January 2009 caused by the landslide in Guatemala and 
the earthquake in Costa Rica.
    In Guatemala, I think, 36 people were killed and a number 
were missing, and in Costa Rica, I think over 100 were injured 
and many died, and I just thought we ought to publicly express 
our sympathy for the problems that they have, and I appreciate 
you putting this in the en bloc group.
    Chairman Berman. Very good. Without objection the chair is 
authorized to seek consideration of these resolutions under 
suspension of the rules, and the amendments to those measures 
which the members have before them shall be deemed adopted. The 
business meeting of the committee is now adjourned.
    [Whereupon, at 10:08 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


      Material Submitted for the Record<greek-l>Markup notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              
<greek-l>Markup minutes; McMahon statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
